           Department of Veterans Affairs
           Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00727-239




    Combined Assessment Program

          Summary Report


             Evaluation of

     Hospice and Palliative Care in

     Veterans Health Administration

               Facilities





August 11, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                   Telephone: 1-800-488-8244
                  E-Mail: vaoighotline@va.gov
               Web site: www.va.gov/oig/hotline
                   Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities



                                Executive Summary

The VA Office of Inspector General Office of Healthcare Inspections completed an
evaluation of hospice and palliative care in Veterans Health Administration facilities.
The purposes of the evaluation were to determine whether VHA facilities performed
active hospice and palliative care case finding, provided end-of-life care training to staff,
and met selected documentation standards and to assess selected Palliative Care
Consult Team processes, documentation, and staffing.

Inspectors evaluated hospice and palliative care at 54 facilities during Combined
Assessment Program reviews conducted from October 1, 2012, through
September 30, 2013.

Although we observed many positive practices, we identified two opportunities for
Veterans Health Administration facilities to improve. We recommended that the Under
Secretary for Health, in conjunction with Veterans Integrated Service Network and
facility leaders, ensures that:

   	 Facilities provide at least the minimum required Palliative Care Consult Team
      staffing.

   	 Facilities provide end-of-life care training to staff who work in areas where they
      are likely to encounter patients at the end of their lives.

Comments
The Under Secretary for Health concurred with the findings and recommendations.
(See Appendix A, pages 5–8, for the full text of the comments.) The implementation
plans are acceptable, and we will follow up until all actions are completed.




                                                              JOHN D. DAIGH, JR., M.D.

                                                             Assistant Inspector General for

                                                                Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                                i
                        Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities



                                                  Purpose

The VA Office of Inspector General (OIG) Office of Healthcare Inspections evaluated
hospice and palliative care (HPC) in Veterans Health Administration (VHA) facilities.
The purposes of the evaluation were to determine whether VHA facilities performed
active HPC case finding, provided end-of-life care training to staff, and met selected
documentation standards and to assess selected Palliative Care Consult Team (PCCT)
processes, documentation, and staffing.

                                              Background

The goal of HPC is to improve end-of-life care by enhancing the quality of life for the
terminally ill and their loved ones through a team-oriented approach that includes
medical care; pain management; and emotional, social, and spiritual support.

Hospice is a subset of palliative care for patients diagnosed with a known terminal
condition with a prognosis of less than 6 months. Hospice care focuses on enhancing
the quality of life remaining for patients by providing care 24 hours a day, 7 days a
week. In addition, hospice care includes bereavement and counseling services for
surviving family and friends. This care can be provided by in-home or inpatient
services. Hospice care strives to allow patients to die with dignity and pain-free.1
Palliative care is a broader term that includes hospice care but does not require the
presence of an imminently terminal condition (prognosis of 6 months or less). Palliative
care may include a balance of comfort measures and life-prolonging interventions that
vary across a wide spectrum.

The Veterans’ Health Care Eligibility Reform Act mandates that VHA facilities provide
hospice services to all veterans meeting hospice criteria. Facilities should provide
in-home or inpatient hospice care. Inpatient hospice care can be provided at a facility, if
available, or in the community. We found that 51 of the 54 facilities (94 percent) in our
sample provided inpatient hospice and that 88 percent of the facilities with inpatient
hospice beds had those beds located in the community living centers.

For optimal end-of-life care, consults to PCCT teams should be initiated as soon as
possible so that patients can benefit from the special services for as long as possible.
VA’s Office of Geriatrics and Extended Care gathers information from facilities to
monitor the numbers and effectiveness of PCCT activities. We reviewed the data from
fiscal years 2012 and 2013 and noted improvement in the inpatient deaths in which the
PCCT was consulted from 68 percent to 71 percent.

End-of-life care relies on a team of clinicians, each of whom brings special expertise in
meeting the physical, medical, psychosocial, emotional, and spiritual needs of the
patients and their families. Clinicians caring for inpatients receiving HPC are required to
complete interdisciplinary care plans, screen for presence of advance directives, and

1
    National Hospice and Palliative Care Organization website, http://www.nhpco.org, accessed October 15, 2010.


VA OIG Office of Healthcare Inspections                                                                           1
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities


assess pain with appropriate frequency. We found that more that 90 percent of the
54 facilities in our sample accomplished these tasks.

                            Scope and Methodology

Inspectors evaluated HPC at 54 facilities during Combined Assessment Program
reviews conducted from October 1, 2012, through September 30, 2013. The facilities
were a stratified random sample of all VHA facilities and represented a mix of facility
size, affiliation, geographic location, and Veterans Integrated Service Networks. OIG
generated an individual Combined Assessment Program report for each facility. For
this report, we summarized the data collected from the individual facility Combined
Assessment Program reviews.

Based on the sampled facilities, we analyzed compliance with selected requirements to
estimate results for the entire VHA system. We presented a 95 percent confidence
interval (CI) for the true VHA value (parameter). A CI gives an estimated range of
values (calculated from a given set of sample data) that is likely to include an unknown
parameter. The 95 percent CI indicates that among all possible samples we could have
selected of the same size and design, 95 percent of the time the population parameter
would have been included in the computed intervals. To take into account the
complexity of our multistage sample design, we used the Taylor expansion method to
obtain the sampling errors for the estimates. We used Horvitz-Thompson sampling
weights, which are the reciprocal of sampling probabilities, to account for our unequal
probability sampling. All data analyses were performed using SAS statistical software
(SAS Institute, Inc., Cary, NC), version 9.3 (TS1M0).

We reviewed facility policies and staff training records. We also conversed with
applicable managers and staff. Additionally, for each of the 54 facilities, we reviewed a
sample of patients’ electronic health records. The patient and training record samples
within each facility were not probability samples, and thus do not represent the entire
patient and employee population of that facility. Therefore, the patient and training
record results presented in this report are not generalizable to the entire VHA.

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA OIG Office of Healthcare Inspections                                                                 2
                       Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities



                                     Inspection Results

Issue 1:          Facility PCCTs
VHA requires all facilities to assemble a PCCT to ensure veterans with serious,
life-limiting illnesses have HPC services available.2 PCCTs are generally comprised of
a core interdisciplinary group of professionals from medicine, nursing, social work,
psychology or mental health, and chaplain and an administrative support person. The
PCCT may also include other professionals such as pharmacists, dietitians, physical
therapists, occupational therapists, recreation therapists, creative art therapists, and
community health nurse coordinators.

Physicians or other health care professionals request assistance in treating patients
who have a life-limiting or serious illness and their families by submitting HPC consults
to the PCCT. Consult requests can be for either inpatient or outpatient settings and
may include assessment performance and recommendations related to prognosis; pain
and symptom management; goals of care and associated treatment decisions;
advanced care planning; psychosocial, spiritual, and other issues; family meetings; and
referrals to hospice and other VA and community services. One or more members of
the PCCT may respond and involve other team members as indicated by the nature of
the consult and the needs of the patient and family.

We reviewed facility policies and 1,076 electronic health records. We found that in
general:
         Liaisons with community hospice programs were designated.
         Alternative therapies were available (for example, pet, music, and massage).
         Actions on PCCT consults were within 7 days of the request or sooner based on
          facilities’ policies, and consult responses were properly attached to consult
          requests.

We reviewed the composition of 54 PCCTs. We found that VHA facilities either met or
exceeded minimum staffing requirements for medicine, nursing, social work, and
chaplain. However, we estimated that PCCTs lacked required administrative support
staff at 45.0 percent (95 percent CI 34.69–55.71) of facilities, and we estimated that
PCCTs lacked required mental health providers at 22.2 percent (95 percent
CI 14.25–32.88) of facilities.
We recommended that facilities provide at least the minimum required PCCT staffing to
ensure that PCCTs can provide the necessary services to patients.




2
    VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.


VA OIG Office of Healthcare Inspections                                                                    3
                      Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities


Issue 2:          Staff Training in End-of-Life Care
VHA requires that staff receive training on the unique needs of dying patients and their
families.3 The requirement is general and does not specify whether all VHA staff need
such training or only staff working with certain patient populations. We reviewed
450 training records of staff who were assigned to work with HPC patients and found
that in general, they had received end-of-life care training.

We attempted to determine whether staff who were not assigned to work
with HPC patients but worked in areas where they were likely to encounter patients at
the end of their lives had received end-of-life care training. We reviewed training
records of staff who worked in intensive care units, emergency departments, and
home-based primary care programs. We found that training had not been provided to
29 percent (226/788) of these staff within the 2-year period prior to our visit. Again, the
requirement is general and does not specify these three areas. Some facilities told us
that they provided end-of-life care training to staff but had not chosen these areas. VHA
has an online training site that offers end-of-life care training, and facility PCCTs are
required to offer training to staff.

We recommended that facilities provide end-of-life care training for staff who work in
areas where they are likely to encounter patients at the end of their lives.

                                          Conclusions

We observed many positive practices during our review, including active case finding,
timely response to consults, and documentation of care plans and advance directives.
However, facilities could improve HPC by providing required minimum PCCT staffing
and end-of-life care training to staff.

                                    Recommendations

1. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility senior managers, ensures that at least the
minimum required Palliative Care Consult Team staffing is provided.

2. We recommended that the Under Secretary for Health, in conjunction with Veterans
Integrated Service Network and facility senior managers, ensures that end-of-life care
training is provided to staff who work in areas where they are likely to encounter
patients at the end of their lives.




3
    VHA Directive 2008-066.


VA OIG Office of Healthcare Inspections                                                                   4
                   Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities
                                                                                           Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs	                                   Memorandum

           Date:       August 4, 2014

          From:        Interim Under Secretary for Health (10)

       Subject:	       OIG     Draft   Combined      Assessment   Program
                       Summary Report – Evaluation of Hospice and Palliative
                       Care in Veterans Health Administration Facilities
                       (2014-00727-HI-0372) (VAIQ 7466149)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1.	 Thank you for the opportunity to review the draft Evaluation of Hospice
           and Palliative Care in Veterans Health Administration (VHA) Facilities.
           I have reviewed the draft report and concur with the report’s
           recommendations.

       2.	 Attached is VHA’s corrective action plan for recommendations one and
           two.

       3.	 Should you have any questions, please contact Karen M. Rasmussen,
           M.D., Director, Management Review Service (10AR), at
           (202) 461-6643 or email at VHA10ARMRS2@va.gov.




           Attachment




VA OIG Office of Healthcare Inspections                                                                5
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities


                    VETERANS HEALTH ADMINISTRATION (VHA)


                                            Action Plan

OIG Draft Report, Combined Assessment Program Summary Report – Evaluation

                of Hospice and Palliative Care in VHA Facilities

Date of Draft Report: March 25, 2014


Recommendations/                                Status                               Completion
Actions                                                                              Date

OIG Recommendations

Recommendation 1. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility senior managers,
ensures that at least the minimum required Palliative Care Consult Team staffing is
provided.

VHA Comments

Concur

VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), requires the presence
of an active interdisciplinary palliative care consult team at every VA medical center
(VAMC). These teams play a vital role in meeting the needs of Veterans with serious
life-limiting illness across the system.

The Geriatrics and Extended Care Services (GEC), Hospice and Palliative Care (HPC)
Program, will continue to require quarterly reporting from all VAMCs regarding the
staffing of their PCCTs. The HPC program office shares areas of concern with VHA
leadership and collaborates on action planning for VAMCs with persistent vacancies.

HPC Operations will establish a work group with the Deputy Under Secretary for Health
for Operations and Management, Office of Mental Health Operations (MHO) to
specifically address deficiencies in mental health staffing. The HPC program office has
shared information on facilities with persistent vacancies with MHO and they will be
using these data in their oversight activities to promote filling of these positions. The
workgroup will develop guidance for achieving the mental health palliative care team
staffing requirements as outlined in the policy, and will issue a memorandum to field
leadership, through GEC Operations, to share this guidance with VAMC leaders. The
workgroup will also provide ongoing quarterly briefings to GEC leadership until this
issue is resolved.

HPC will also continue to monitor overall staffing, including both inpatient and outpatient
workload of PCCTs, while promoting collaboration with primary care and Patient Aligned



VA OIG Office of Healthcare Inspections                                                                 6
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities


Care Teams (PACT) to increase the reach of palliative care expertise beyond the
inpatient setting and earlier in the course of disease.

To complete this action plan VHA will provide documentation of:

      An example of meeting minutes taken during the HPC and MHO workgroup.
      The final guidance written for achieving the mental health palliative care team
       staffing requirements as outlined in the policy.
      The memorandum to field leadership, through GEC Operations, to share
       guidance with VAMC leaders.
      A briefing to GEC leadership.

                                                        In progress              November 28, 2014

Recommendation 2. We recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Network and facility senior managers,
ensures that end-of-life care training is provided to staff who work in areas where they
are likely to encounter patients at the end of their lives.

VHA Comments

Concur

The HPC program will continue to promote educational programs and resources for
staff caring for those with advanced illness. Given that education on the needs of dying
patients is now a Joint Commission (TJC) standard (PC.02.02.13, part 2: The hospital
provides staff with education about the unique needs of dying patients and their
families.), HPC will develop and disseminate a brief educational toolkit (less than
1 hour) to address this standard.

HPC Operations will issue a memorandum to inform leadership and staff who interact
with Veterans at end of life and their families that basic education on the needs of the
dying is now a Joint Commission standard and that facilities have an array of options to
provide this education to relevant staff.

This HPC Operations memorandum will establish the target audience for this
educational focus to be front line staff working in intensive care units, long-term care
settings, emergency departments and home based primary care. Most hospice and
palliative care staff will likely have received sufficient education on end-of-life care
through their routine job training or qualifications but should be included in this
educational initiative if they have no previously documented education or qualifications
in end of life care. The HPC Operations memorandum will require facility Directors to
develop an action plan that addresses the memorandum’s education expectations and
communicate their action plan to their VISN’s Palliative Care Leader, GEC Leader and
Quality Management Officer (QMO). The deadline for submitting their action plan to
these VISN leaders is within 90 days of the issuance of the HPC Operations




VA OIG Office of Healthcare Inspections                                                                 7
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities


memorandum. These action plans could include the following approaches or other
novel actions to meet the educational expectations;

      Use of the HPC program educational toolkit as facilitated locally
      Revision of new employee orientation to include this educational information
      In-services, which include documentation of education on the unique needs of
       dying patients and their families
      Virtual education in end of life care as provided by the HPC program office on a
       regular basis

To complete this action plan VHA will provide documentation of:

      The educational toolkit to educate staff caring for those approaching the
       end-of-life
      The memorandum with the following requirements:
          o	 Inform staff and VAMC leadership that this specific education is a Joint
             Commission standard and is strongly recommended for front line staff who
             work in intensive care units, long-term care settings, emergency
             departments and home based primary care.
          o	 Facility Directors must communicate to their VISN Palliative Care and
             GEC Leaders and QMO an action plan to address this educational
             requirement within 90 days of the issuance of the memorandum.
          o	 Each VISN Palliative Care and GEC Leader will collaborate with their
             VISN’s Quality Management Officer to compile the facility action plans and
             submit to the HPC program office their VISN action plan to ensure facility
             compliance with TJC standard PC.02.02.13, part 2.

                                                        In progress              November 28, 2014




VA OIG Office of Healthcare Inspections                                                                 8
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities
                                                                                            Appendix B

                 OIG Contact and Staff Acknowledgments
Contact	                 For more information about this report, please contact the OIG at
                         (202) 461-4720
Contributors             Gayle Karamanos, MS, PA-C, Project Coordinator
                         Daisy Arugay, MT
                         Gail Bozzelli, RN
                         Elizabeth Burns, MSSW
                         Margie Chapin, RTR, JD
                         Jennifer Christensen, DPM
                         Victoria Coates, LICSW, MBA
                         Darlene Conde-Nadeau, MSN, ARNP
                         Laura Dulcie, BSEE
                         Donna Giroux, RN
                         Rose Griggs, MSW, LCSW
                         Elaine Kahigian, RN, JD
                         Yoon Hee Kim, PharmD
                         Karen McGoff-Yost, MSW, LCSW
                         Cindy Niemack-Brown, CMSW, LMHP
                         Noel Rees, MPA
                         Trina Rollins, MS, PA-C
                         Roberta Thompson, LCSW
                         Ann Ver Linden, RN, MBA
                         Joanne Wasko, LCSW
Other	                   Elizabeth Bullock
Contributors	            Lin Clegg, PhD
                         Patrick Smith, M. Stat.
                         Jarvis Yu, MS
                         Julie Watrous, RN, MS




VA OIG Office of Healthcare Inspections                                                                 9
                    Evaluation of Hospice and Palliative Care in Veterans Health Administration Facilities
                                                                                            Appendix C


                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
Office of the General Counsel
Office of the Medical Inspector
Veterans Integrated Service Network Directors (1–23)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                                10
